FIRSTBANK CREDIT CARD AGREEMENT FOR THE BEYOND ULTIMATE VISA® & MASTERCARD®
(THE “AGREEMENT”)
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

0%

Introductory APR for the first 15 months that your account is open, for purchases made within the

first 6 months of account opening date.
After that, your APR will be the U.S. Prime Rate

(“Prime Rate”) + 7.50% to the U.S. Prime

(“Prime Rate”) + 21.25%

APR for Balance Transfers

Rate
based on your creditworthiness at the time you opened
your account.
0% Introductory APR for the first 15 months that your account is open, for transfers completed within the
first 6 months of account opening date.

APR for Cash Advances

After that, your APR will be the U.S. Prime Rate (“Prime Rate”) + 7.50% to the U.S. Prime Rate (“Prime
Rate”) + 21.25% based on your creditworthiness at the time you opened your account.
U.S. Prime Rate (“Prime Rate”) + 14.00% to the U.S. Prime Rate (“Prime Rate”) + 21.25% , based on
your creditworthiness at the time you opened your account. This APR (“Cash Advance APR”) will vary
with the market, based on the Prime Rate.

Penalty APR and When it Applies

29.99%*
This APR may be applied to you if you become more than 60 days late paying your bill.

How to Avoid Paying Interest on
Purchases
Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection
Bureau
Fees
Annual Fee
Transaction Fees
-Balance Transfers:
-Cash Advance:
-Convenience Checks:
-Foreign Transactions:
Penalty Fees
-Late Payment
-Returned Check

How Long Will the Penalty APR Apply? If your APRs are increased for this reason, the Penalty
APR will apply until you make six consecutive minimum payments when due.
Your due date is at least 25 days after the close of each billing cycle. We will not charge you interest on
new Purchases if you pay your entire balance by the due date of each month. We will begin charging
interest on cash advances, convenience checks, and balance transfers on the transaction date.
If you are charged interest, the charge will be no less than $1.50.
To learn more about factors to consider when applying for or using a credit card, visit the website
of the Consumer Financial Protection Bureau at https://www.consumerfinance.gov/learnmore

$0 Intro fee for 12 months. After that, $150.00.
2.00% of the amount of each transaction ($2.00 minimum; $10 maximum)
2.00% of the amount of each transaction ($2.00 minimum; $10 maximum)
2.00% of the amount of each transaction ($2.00 minimum; $10 maximum)
1.00% of each transaction in US Dollars for Visa.
1.40% of each transaction in US Dollars for MasterCard.
Up to $35
Up to $15

How We Will Calculate Your Balance: We use a method called “average daily balance without compounding (including new purchases)”. See your account
agreement for more details.
Loss of Introductory APR: We may end your introductory APR and apply the Penalty Pricing if you become more than 60 days late paying your bill.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights are provided in your account agreement.
Late Payment: A single violation will not exceed $25. However, if another violation occurs within a six month billing period we will charge up to the
maximum fee in the table above. The Late Payment fee will not exceed the related minimum payment that was due. The Returned Check fee will not
exceed the related check amount.

* The Daily Periodic Rate for the Penalty APR is 0.0822%

Review and save the following information of your account. This document together with the Rates and Fees Table is an
agreement between you, the cardholder, and FirstBank. If you have questions, please call us using the number on the back of
your card. You also authorize Us to obtain and use your credit bureau reports and any other information about You for the
purpose of: (1) providing extensions of credit for your account; (2) the administration, review or collection of your account; and (3)
for marketing purposes, including but not limited to pre-approvals offers, cross-selling and in offering of other financial or nonfinancial products or services.
ACCOUNT: As consideration for the credit granted by FirstBank (the “Bank”) under this revolving account, you (the main
cardholder under this Agreement) bind yourself to pay to the Bank the total purchases and cash advances (including balance
transfers from other institutions and convenience checks) made on this account, as well as the FINANCE CHARGES and FEES
agreed upon pursuant to the terms and conditions of this Agreement. You may use the credit card (the “Card”) to purchase
merchandise and services in those establishments where the Card is accepted, and obtain cash advances from the Bank or any
other bank that accepts the Card, subject to the limits established from time to time by the Bank. The credit card may not be
used in any country that is subject to economic sanctions imposed by the U.S. government, and any attempted use of the credit
card in such countries will be blocked. The credit card may not be used in connection with online gambling or to fund any
account that is set up to facilitate online gambling.
TRANSACTIONS: You may obtain credit in the form of purchases, balance transfers and cash advance. For purposes of this
Agreement, purchases means the use of your account number and/or the credit card to acquire or lease services and goods, and
perform a transaction that is not a cash advance (“Purchase(s)”). A balance transfer means the transfer of funds to another
creditor initiated by the Bank at your request (“Balance Transfer”). A cash advance means the use of your credit line for the
following: access a check you draw as a signer, an ATM cash advance, request a financial or non-financial institution to obtain
cash, money orders, travelers checks, or wire transfers, perform cash-like transactions (quasi cash) such as the purchase of
foreign currency from non-financial institutions as well as similar cash transactions such as purchasing lottery tickets, casino
gaming chips, race track wages, or similar betting transactions, and making payments using a third party service (“Cash
Advance”).
AUTHORIZED USERS: You will be liable for all transactions made by the persons that you allow the use of convenience checks,
account number, or other credit device with the authorization to obtain credit on your account, including transactions for which
you may not have intended to be liable, even if the amount of those transactions causes the credit limit to be exceeded.
Authorized users may be granted access to information regarding this account if you request it in accordance to Bank
requirements. A notice to any authorized user will be considered notice to all users.
CREDIT LIMIT: You agree that the Bank, for your convenience, will establish a credit limit and that the purchases and cash
advances that you charge to this account shall, at no time, exceed your credit limit. Upon receipt of your Card, you will be
informed of your credit limit which will appear on each monthly account statement (the “Account Statement”) that the Bank will
send to you. You agree that the Bank may, from time to time, change your credit limit, taking into consideration your previous
credit experience or payment history. Should you exceed your authorized credit limit, the Bank will have the right to cancel the
Card, require its return, or cancel the Card and close the account. Any amount due, in excess of your authorized limit, shall be
payable immediately. Your minimum payment shall include any excess over your authorized credit limit.
ANNUAL PERCENTAGE RATE APPLICABLE TO PUERTO RICO AND US VIRGIN ISLANDS: The FINANCE CHARGES will be
computed only on the principal balance. You will pay a monthly FINANCE CHARGE on the balance of your account for the billing
period. The FINANCE CHARGE will be variable and can change from time to time for each billing period. The FINANCE
CHARGE for purchases, balance transfers from other institutions, cash advances and convenience checks will be determined by
adding the value of the highest United States Prime Rate published, on the last business date of the prior month, in the “Money
Rates” section of the Wall Street Journal (“Prime Rate”) to a margin. This is equivalent to the ANNUAL PERCENTAGE RATE
(“APR”). To determine the daily periodic rate (the “Periodic Rate”) the APR must be divided by 365. The FINANCE CHARGE and
the APR applicable to your account will depend on your creditworthiness and the current PRIME RATE at the time of approval of

your application. For each billing period, the FINANCE CHARGE and the APR will be based on the Prime Rate as published on
the last business date of the prior month. An increase of the Prime Rate could represent an increase in the APR and in the
minimum monthly payment. Any change in your FINANCE CHARGE will apply to the existing balances and to the new
transactions during the billing statement. The FINANCE CHARGE is determined by multiplying the daily Periodic Rate to the
average daily balance (the “Average Daily Balance”) by the number of days in the billing cycle. The Average Daily Balance is
obtained by taking into account the initial balance of each day of the billing period, subtracting payments and credits, and adding
the purchases, except purchases made in billing periods in which the period's initial balance is $0 or said initial balance is paid in
full on or before your payment due date. The daily balances within the billing period are added and said total is divided by the
number of days included within the billing period. The result is the Average Daily Balance. No FINANCE CHARGE on purchases
will be imposed for billing periods in which there is no previous balance and if the totality of the account's balance, including
purchases made in such period, are paid or credited in full on or before the applicable payment due date, or if the only balance
owed corresponds to deferred payments or interest offers. There will be no grace period for cash advances, convenience
checks, and balance transfers unless the Bank states otherwise as part of a promotion. The FINANCE CHARGES imposed on
cash advances, convenience checks, and balance transfers will be assessed from the date of the transaction. If the Wall Street
Journal stops publishing the prime rate, we will select a similar rate. MINIMUM MONTHLY PAYMENT: We will calculate the
minimum payment based on 2% of the balance or $15, whichever is greater. In addition, your minimum monthly payment may
include finance charges, periodic interest charges, over limit amounts and late fees billed in the statement for which your
minimum payment is calculated.
PAYMENT APPLICATION: If you pay the required minimum payment of the monthly Account Statement, said payment shall be
applied first to the balances with the lowest APRs. If you pay an amount in excess of the minimum required payment, the excess
will then be applied first to the balances with the highest APRs. Payments are credited the same day if they are: (i) received by
5:00 p.m., Monday through Friday (excluding holidays) at the address indicated on the Account Statement, (ii) are paid with a
check drawn against the Bank, and (iii) accompanied with the payment stub. If the payment is made through a branch of the
Bank, it will be processed the next business day retroactively to the date it was received. Electronic payments received by the
Bank will also be credited the next business date retroactively to the date it was received.
MONTHLY ACCOUNT STATEMENT: The Bank shall mail to you a monthly Account Statement at the end of each billing period.
In each Account Statement the following entries will be shown, as applicable: previous balance, payments, credits, debits,
purchases, balance transfers from other institutions, convenience checks and cash advances made within the same period, the
FINANCE CHARGE, the ANNUAL PERCENTAGE RATE, the total new balance, the minimum payment and the due date for
said payment. You must notify the Bank in writing of any error in the Account Statement within sixty (60) days following the date
on which the statement was mailed.
FEES: The currency conversion fees for international transactions will be billed in US Dollars by either Visa International and/or
MasterCard International depending on your card. Please refer to the “Fees” section on the table included.
CREDIT LINE AVAILABILITY HOLD: From time to time the Bank may apply a Credit Line Availability Hold to your account if your
payment is returned for any reason or multiple payments are received in same statement period. The Hold will delay for up to a 4
day period the availability on the credit line for an amount equal to the payment made.
INSTALLMENT PLAN: The Installment Plan enables you to use your credit card for transactions allowing you to determine the
repayment period for that balance. The amount requested for the Installment Plan will be subject to your credit line availability.
The APR, Interest Charges and Monthly Minimum Payment, of your Installment Plan may vary for each billing cycle. The APR for
your Installment Plan is equivalent to your Standard APR for purchases. The minimum monthly payment of your Installment Plan
will be included in the minimum monthly payment due of your account during the term of the Installment Plan. You will be
responsible to pay the total minimum monthly payment amount as established in your account statement. The Interest Charges
will be calculated based on the Average Daily Balance. To pay in full your Installment Plan please contact Customer Service in
order to obtain the total balance owed. Installment Plan is not available for accounts under Penalty Rate and no grace period
applies. If you do not comply with the minimum monthly payments of your installment loan, the Late Fee will apply as established
in the Credit Card Agreement. The unpaid amount of the Installment Plan in the minimum monthly payment requested will be

transferred to the Balance Transfers section. If Penalty Pricing applies to your account, the balance pertaining to Installment Plan
will remain subject to the Standard APR for Purchases and the corresponding term of Installment Plan will not change. To
request an Installment Plan and receive information regarding repayment terms you may contact Customer Service at 787-7012265 or toll free 1-855-701-2265.
SKIP A PAYMENT: From time to time, if a pre-established criteria is met, you may be eligible, to skip making the Minimum
Payment for certain billing cycles. If you receive this offer, your account statement will show that the required Minimum Payment
for that period is of zero dollars ($0), and you may not have to make the Minimum Payment for that billing cycle. Note that if you
decide to skip a payment the account will continue to accrue Interest Charges on the unpaid balance during that period.
Nonetheless, you can always make a payment for any amount. At the end of the skip a payment period, the terms of the
Agreement regarding the required Minimum Payment will automatically resume.
DEFAULT: You will be in default under this Agreement if you do not pay an installment on time, file for bankruptcy, or
exceed your credit limit without the Bank's authorization. In the event of default, the Bank may demand immediate payment of
the full balance due. If the Bank has to refer collection of the balance to an attorney, you may have to pay legal and attorney
fees, plus court costs and any other fees allowed by law.
ANNUAL FEE: Please refer to the “Annual Fee” section on the Rates and Fees table included in this agreement. The ANNUAL
FEES will be reflected on your Account Statement on each anniversary of the issuance of the first Card whether or not you used
your account.
DENIAL OF CREDIT: The Bank is not responsible if a purchase or cash advance on your account is not approved either by the
Bank or by a third party, even if you have sufficient credit available. The Bank may limit the number of purchases or cash
advances which may be approved in any day. If the Bank detects unusual or suspicious activity on your account, the Bank may
temporarily suspend your credit privileges until it can verify that the transaction is legitimate. The Bank may approve purchases
or cash advances which cause the balance to exceed your credit limit without waiving any of its rights under this Agreement.
LOST OR STOLEN CARDS: If the Card is lost or stolen, or if you suspect that someone could be using it without your
authorization you must immediately notify the Bank and complete and submit such forms or reports as the Bank may require. In
the event of loss, theft, or possible unauthorized use of the Card, you may be responsible for the unauthorized use of the Card
up to an amount not exceeding $50.00, unless you have notified the Bank of the loss, theft, or possible unauthorized use of the
Card, prior to any purchase or cash advance, by calling TOLL FREE (855) 701-2265 or (787) 751-2265. Text teletype device
(TTY) for the hearing impaired phone number: 787-282-4267.
YOUR BILLING RIGHTS:
Keep this Document for Future Reference
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Think You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us:
FirstBank
PO Box 84025
Columbus, GA 31908-4031
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of Problem: If you think there is an error on your bill, describe what you believe is wrong and why you
believe it is a mistake.
You may contact us:

•

Within 60 days after the error appeared on your statement.

•

At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you
think is wrong.

You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any
potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have
already corrected the error.

2.

Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is
correct.

While we investigate whether or not there has been an error:
•

We cannot try to collect the amount in question, or report you as delinquent on that amount.

•

The charge in question may remain on your statement, and we may continue to charge you interest on that
amount. But, if we determine that we made a mistake, you will not pay the amount in question or any interest or
other fees related to that amount.
While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
We can apply any unpaid amount against your credit limit.

•
•

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that
amount.
• If we do not believe there is a mistake: You will have to pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you owe and the date payment is due. We may then report
you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse
to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning the bill. We must tell you
the name of anyone to whom we reported you as delinquent, and we must let those organizations know the matter has been
settled between us.
If we do not follow all the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith
to correct the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these is necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from the ATM or with a
check that accesses your credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
FirstBank

PO Box 84025
Columbus, GA 31908-4031
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you owe an amount and you do not pay we may report you as
delinquent.
AMENDMENTS: You agree that the Bank may change the INTEREST RATE, ANNUAL PERCENTAGE RATE, FINANCE
CHARGES, and other terms contained in this Agreement, on the condition that the Bank gives you notice of such changes as are
required by any applicable law and/or regulation. If you do not agree with the amendments notified and desire to cancel the
Agreement, you must notify your decision in writing to the Bank within fifteen (15) days from the date on which the amendment
notification was mailed, and continue to pay the balances owed in accordance with the terms and conditions in effect at the time
of the notice of amendment.
CANCELLATION: You may cancel your account at any time by providing written notice to the Bank and returning the Card cut in
half. The Card is property of the Bank and it reserves the right to cancel or suspend your right to use it at any time, with or
without cause, and without prior notice. You will remain responsible for the payment of any balance owed at the time of
cancellation.
MISCELLANEOUS PROVISIONS: The failure on the part of the Bank to exercise any right under this Agreement shall not
constitute a waiver of said rights. If any clause or part of a clause of this Agreement is declared null by a court of law or is left
without effect by legal or regulatory provisions, the rest of the provisions of this Agreement will not be affected and shall continue
to be in effect. You understand and agree that the Cards cannot be used for commercial purposes. The Bank reserves the right
to convert your account, at its discretion, to any other revolving account of the Bank at any moment, subject to you meeting
the established credit criteria for the new account. We may at any time, and without notice to you, sell, assign or transfer your
account, any amounts due on your account, this Agreement, or our rights or obligations under your account or this Agreement to
any person or entity. The person or entity to which we make any such sale, assignment or transfer shall be entitled to all of our
rights and shall assume our obligations under this Agreement, to the extent sold, assigned or transferred. You have no obligation
to accept this Card, nor will you be held responsible for any charges, unless you choose to accept it. Use of this Card shall
constitute its acceptance. If you choose not to accept the Card, you must notify the Bank within fifteen (15) days after receiving it
without having used it. To notify that you do not wish to accept the Card, please call TOLL FREE (855) 701-2265 or (787) 7512265. Text teletype device (TTY) for the hearing impaired phone number: 787-282-4267. Life, disability, accidental death
and dismemberment, or involuntary unemployment insurance coverage is optional and is not a requirement or condition to
extend credit. This Agreement shall be interpreted in accordance with the laws of the Commonwealth of Puerto
Rico.
DIRECT DISPUTE NOTICE (CREDIT REPORTING DISPUTES): If you believe we have furnished inaccurate or incomplete
information about you or an account to a credit reporting agency, write to us at: PO BOX 9146 Mail code 273, San Juan, PR
00908-0146. Please include sufficient information to identify the account or other relationship which is in dispute, including: the
account number, name, address, and telephone number, if applicable; a description of the claim including specific information of
the dispute and an explanation of the reason for your complaint; and all documentation supporting your claim or any other
necessary information that may be required by the Institution. This documentation may include: a copy of the relevant part or
section of your Credit Report which is the basis for the claim or the portion of the Credit Report which includes the incorrect
information; a complaint from the Police; an identity theft or fraud affidavit; and, copies of your account statements; among other
documents that you may present to support your claim.

FirstBank Card Services (rev 03/17)

